                            CLOSEOUT FOR M-95080036




collaborative nature of the proposals, OIG considered both PIS as subjects in its inquiry. In
addition, the complainant alle ed that subject #1 violated the
when, as a reviewer of a r     m     S    P proposal6 submitted by                     (other
PI), subject #1 misappropr~atedan idea from the proposal and
program

        The NSF computerized reviewer system database showed that subject #1 did not
review the complainant's proposal, but that subject #2 did serve as a panelist for the evaluation
of the complainant's proposal.

        With the first allegation, the complainant described seven specific ideas that she said
had been misappropriated from her proposal. The NSF program officer who brought the first
allegation to OIG's attention said that, in his opinion, none of the ideas alleged to have been
misappropriated were unique to the' complainant. Six of the alleged misappropriated ideas
involved experimental approaches described in the complainant's and the subjects' proposals.
OIG determined that the six experimental approaches were not unique to the complainant, but




                                      Page 1 of 2                                     M95-36
                                                                                                    -   -
                            CLOSEOUT FOR R4-95080036

represented observat~onaltechn~cluescommonly used by researchers In tlie field 07 study
represented by the proposals OlG observed that the seventh Idea was conta~ned In a
reference used by the compla~nantand the subjects 111 the~rproposals and was not unlque to
tlie complainant

       OIG concluded that there was no substance to the allegation that either subject violated
the confidentiality of peer review by misappropriating ideas from the complainant's NSF
proposal because none of the ideas common to the complainant's and subjects' proposals were
unique to the complainant.

       With respect to the second allegation, OIG determined from the computerized
reviewer system database that subject # I never acted as a reviewer or panelist for any NSF
proposal submitted by the other PI over the time period spec~fiedby the complainant. OIG
concluded that there was no substance to the allegation that subject #1 violated t h e
confidentiality of peer review by misappropriating an idea gained through the review of an
NSF proposal submitted by the other PI.

       This inquiry was closed and no further action will be taken

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                     Page 2 of 2
